     Department of Homeland Security

     ��������������������������



              DHS Needs to Manage Its 

        Radio Communication Program Better 





OIG-13-113                              August 2013

                              Washington, DC 20528/ www.oig.dhs.gov


                                   August 29, 2013


MEMORANDUM FOR:              The Honorable Rafael Borras
                             Under Secretary for Management

FROM:                        Charles K. Edwards
                             Deputy Inspector General

SUBJECT:                     DHS Needs to Manage Its Radio Communication Program
                             Better

Attached for your action is our final report, DHS Needs to Manage Its Radio
Communication Program Better. We incorporated the formal comments from the
Department in the final report.

The report contains two recommendations aimed at improving the Department's overall
management of radio communication equipment and supporting infrastructure. Your
office concurred with both recommendations. Based on information provided in your
response to the draft report, we consider the recommendations resolved. Once your
office has fully implemented the recommendations, please submit a formal closeout
letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts. Please email a
signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Anne L. Richards, Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit ................................................................................................................... 3 

   

          Department-wide Inventory ................................................................................... 3 

           

          Radio Communication Program Governance ......................................................... 6 

           

          Utilization of Radio Equipment............................................................................... 7 

           

          Portfolio Management Approach ........................................................................... 9 

           

          Recommendations ............................................................................................... 11 

           

          Management Comment and OIG Analysis ........................................................... 11 



   Appendixes
    

              Appendix A:           Objectives, Scope, and Methodology ........................................... 13 

              Appendix B:           Management Comments to the Draft Report .............................. 15 

              Appendix C:           DHS Radio Equipment and Infrastructure Value .......................... 18 

              Appendix D:           Analysis of DHS Component Inventory Data Elements ................ 19 

              Appendix E:           CBP New Radio Equipment Items Stored at Hi-Tech Facility........ 20 

              Appendix F:           Major Contributors to This Report ............................................... 21 

              Appendix G:           Report Distribution ....................................................................... 22 





www.oig.dhs.gov                                                                                                                 OIG-13-113 

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


   Abbreviations
           CBP      Customs and Border Protection
           CIO      Chief Information Officer
           DHS      Department of Homeland Security
           ESC      Executive Steering Committee
           FEMA     Federal Emergency Management Agency
           FLETC    Federal Law Enforcement Training Center
           GAO      Government Accountability Office
           ICE      Immigration and Customs Enforcement
           JWPMO    Joint Wireless Program Management Office
           OBP      Office of Border Patrol
           OIG      Office of Inspector General
           RPIS     Real Property Inventory System
           TacNet   Tactical Communications Network
           TSA      Transportation Security Administration
           USCG     United States Coast Guard
           USSS     United States Secret Service




www.oig.dhs.gov                                                OIG-13-113

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) operates and maintains 20 land mobile
   radio networks serving more than 120,000 frontline agents and officers. These users
   rely on radio systems for primary communications, officer safety, and mission success.
   DHS manages about 197,000 radio equipment items and 3,500 infrastructure sites, with
   a reported value of more than $1 billion. Many of these systems have exceeded their
   service-life and urgently need to be modernized to meet Federal and DHS mandates.
   DHS has estimated that full modernization of its existing end-of-life radio systems would
   require a $3.2 billion investment. The audit objective was to determine whether DHS is
   managing its radio program and related inventory in a cost-effective manner to prevent
   waste of taxpayer dollars.

   DHS is unable to make sound investment decisions for radio equipment and supporting
   infrastructure because the Department is not effectively managing its radio
   communication program. DHS does not have reliable Department-wide inventory data
   or an effective governance structure to guide investment decision-making. As a result,
   DHS risks wasting taxpayer funds on equipment purchases and radio system
   investments that are not needed, sustainable, supportable, or affordable. Two
   Components we visited stored more than 8,000 radio equipment items valued at
   $28 million for a year or longer at their maintenance and warehouse facilities, while
   some programs faced critical equipment shortages. Portfolio management is central to
   making informed decisions about how to best allocate available equipment to ensure
   the right equipment is in place at the right locations and in the quantities needed to
   conduct mission operations.

   We made two recommendations that, if implemented, will improve the Department’s
   overall management of radio communication equipment and supporting infrastructure.
   The Department concurred with our recommendations.




www.oig.dhs.gov                                1                                      OIG-13-113

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Background
   DHS radio systems are comprised of various personal property and real property items.
   Personal property items include equipment installed at fixed infrastructure sites,
   equipment located at dispatch operation centers or in government buildings, mobile
   radios installed in vehicles, and portable hand-held radios. Real property items include
   land, the tower structure, equipment shelters, and communication and power lines.
   DHS manages an estimated 197,000 radio equipment items and 3,500 radio infrastructure
   sites with a reported value of more than $1 billion as presented in appendix C.1
   Customs and Border Protection (CBP), Immigration and Customs Enforcement (ICE), and
   the United States Secret Service (USSS) held 93 percent of the total $558.5 million of the
   radio equipment inventories.

   DHS operates more than 20 private national radio systems serving more than 120,000
   agents and officers. Each Component owns and operates its own radio system(s). Most
   of the infrastructure for these systems was placed in service in the late 1980s, has
   exceeded its service-life, and does not provide sufficient coverage in remote areas.
   Some of this infrastructure also does not meet Federal mandates for security (i.e.,
   encryption) and efficiency (narrow-banding), or interoperability standards (P-25).2
   Much of the wide-band, analog radios and equipment operating on or composing these
   radio systems are no longer produced or supported by the manufacturer, and
   cannibalization of existing equipment and spare inventories is cited as the only option
   for maintaining these networks and equipment.

   DHS has estimated that full modernization of its existing end-of-life radio systems would
   require a $3.2 billion investment. DHS awarded a $3 billion Department-wide strategic
   sourcing contract in March 2012 to acquire equipment and services needed to maintain,
   upgrade, and modernize its legacy radio systems. As of September 2012, DHS has spent
   more than $33 million on this contract. 3

   The Government Accountability Office (GAO) recognizes portfolio management as a best
   practice in making investment decisions.4 Portfolio management addresses an
   1
     The Transportation Security Administration and United States Coast Guard provided data that did not include any 

   reported values or costs for the equipment items listed. Therefore, the total amount presented in appendix C is 

   understated. 

   2
     Project 25 (P-25) is a manufacturing standard that was developed to improve interoperable radio communications in 

   the public safety community.

   3
     A strategic sourcing contract vehicle is a contract or agreement that has been established for use by multiple DHS 

   Components to acquire goods or services. Strategic sourcing helps to achieve improvements in price, performance,

   total cost of ownership, and overall business efficiency.

   4
     GAO-07-388, Best Practices: An Integrated Portfolio Management Approach to Weapon System Investments Could 

   Improve DOD’s Acquisition Outcomes, March 2007.


www.oig.dhs.gov                                             2                                                   OIG-13-113

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   organization’s investments collectively at the enterprise level. It requires that items are
   inventoried and classified together in a portfolio. This approach provides information to
   prioritize and allocate resources to meet the agency’s needs in an affordable manner.
   Portfolio management requires a strong governance structure with adequate authority
   and clearly defined roles and responsibilities in order to be effective.

   Results of Audit
   DHS is unable to make sound investment decisions for radio equipment and supporting
   infrastructure because the Department is not effectively managing its radio
   communication program. DHS does not have reliable Department-wide inventory data
   or an effective governance structure to guide investment decision-making. As a result,
   DHS risks wasting taxpayer funds on equipment purchases and radio system
   investments that are not needed, sustainable, supportable, or affordable. Two DHS
   Components we visited stored more than 8,000 radio equipment items valued at $28
   million for a year or longer at their maintenance and warehouse facilities, while some
   programs faced critical equipment shortages. A portfolio management approach is key
   to achieving a balanced mix of executable programs and ensuring a good return on
   investments when determining needs and allocating fiscal resources. Portfolio
   management is also central to making informed decisions about the best way to allocate
   available equipment to ensure the right equipment is at the right locations and in the
   quantities needed to conduct mission operations.

           Department-wide Inventory

           DHS does not have reliable Department-wide personal and real property radio
           equipment inventory data. DHS Components use different systems to record
           and manage their radio personal property inventory. DHS has not established
           Department-wide polices prescribing common data elements, standardized
           definitions, and requirements for the management of personal property
           inventory. Components use their agency-specific personal property manuals to
           record inventory in their data systems while the DHS Office of the Chief
           Administrative Officer’s Personal Property Asset Management Manual has
           remained in draft since 2010. As a result, DHS Components do not record
           consistent, accurate, and complete radio equipment and infrastructure inventory
           data.




www.oig.dhs.gov                                 3                                       OIG-13-113

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Personal Property Data

           DHS Components use different systems to record and manage personal property
           inventory data, including radio equipment. Table 1 reflects the personal
           property systems Components currently use to report and manage personal
           property inventory.

           Table 1. Component Personal Property Inventory Systems
               Component                                  System(s) Used
              CBP               Systems, Applications, and Products in Data Processing
              FEMA              Logistics Information Management System and
                                Sunflower Asset Management System
              FLETC             Momentum
              ICE               Sunflower Asset Management System
              TSA               Sunflower Asset Management System
              USCG              Multiple disparate inventory databases
              USSS              Enterprise Financial Management System and
                                Sunflower Asset Management System
            Source: DHS-OIG

           Components’ inventory data indicates they do not record radio equipment
           consistently into their respective personal property systems. For example, six
           Components did not record the condition of their radio equipment (e.g., new,
           scrap, etc.). Two Components did not record the current status or availability of
           their radio equipment. Two Components did not identify the category or type of
           asset, such as distinguishing radio equipment from weapons. Appendix D
           summarizes our analysis of the Components’ personal property data elements
           recorded in their inventory system.

           Our analysis and onsite testing of CBP, ICE, and USSS radio equipment
           inventories at technical maintenance facilities/warehouses indicated the
           inventories were inaccurate or incomplete. For example, an analysis of ICE
           inventory records disclosed that 1,740 equipment items, valued at $6.6 million,
           were listed as “in service;” however, ICE was actually storing these items at its
           Technical Maintenance Facility in Largo, MD, some for at least 17 months.5
           Similarly, CBP inventory records reflected 6,306 equipment items, valued at
           $21.5 million, were stored at the Hi-Tech maintenance facility in Orlando, FL for

   5
    ICE reported the Technical Maintenance Facility in Largo, MD has since been closed and equipment from
   the facility transferred to the field, CBP, or moved to Mt. Weather.

www.oig.dhs.gov                                      4                                            OIG-13-113

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           16 months or longer. Of these items, 6,147 were recorded in the system as
           “active.” The activity terms “in service” or “active” may give a false impression
           to decision makers that someone is currently using the equipment. As such, they
           may believe this equipment is not available for issuance to field users when in
           fact the items are sitting idle in a maintenance facility/warehouse.

           USSS and CBP also did not record new radio equipment in their inventory
           systems. Specifically, USSS did not record 35 brand new repeaters valued at
           $389,380 in its inventory system until 2 years after their acquisition in March
           2010. As of February 2013, CBP had not recorded 58 brand new repeaters,
           valued at $435,503, which its Orlando, FL facility received and stored in early
           2012.

           Real Property Data

           DHS maintains real property inventory data in the Real Property Inventory
           System (RPIS); however, the data the system captures is not sufficient to manage
           the DHS radio communication program. The DHS Real Property Manual specifies
           the real property data elements that DHS Components are required to report in
           the RPIS. While the RPIS contains basic data fields for capturing elements
           needed to manage real property, it does not capture the comprehensive data
           needed to manage radio programs. Managing radio programs and infrastructure
           is not limited to real property information, but also includes knowing the
           network, the backhaul (how the signal is transmitted), operating frequencies,
           and the type of equipment installed at each radio site. The DHS Office of
           Emergency Communications’ System Lifecycle Planning Guide, dated August
           2011, points out the importance of capturing this type of information in
           managing a radio system.

           Four DHS Components we reviewed did not report infrastructure real property
           inventory data consistently in RPIS. CBP was the only Component to report any
           land associated with its radio infrastructure. The United States Coast Guard
           (USCG) and USSS were the only Components to report any information regarding
           the date acquired or the length of time its radio infrastructure has been in
           service.

           The four Components also reported incomplete and inaccurate infrastructure
           real property data, which RPIS requires. We requested and obtained
           infrastructure lease data from CBP, ICE, USSS, and USCG. We compared the radio
           infrastructure lease data for these four Components to the infrastructure real
           property information reported in the RPIS. We noted:

www.oig.dhs.gov                                 5                                       OIG-13-113

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


                  •	 Of the 930 CBP leases, 236 (25 percent), with annual costs of $1.3 million,
                     were not recorded in the RPIS.
                  •	 None of the 212 USSS leases, with an annual cost of about $2.1 million,
                     were recorded in the RPIS.
                  •	 Of the 126 ICE leases, 125 (99 percent), with an annual cost of $1.5
                     million, could not be verified to the RPIS data because there was no
                     consistent unique identifier between the two sources of information.
                  •	 Of the 215 USCG infrastructure leases, 112 (52 percent), with annual
                     costs of $3.8 million, were not recorded in the RPIS.

            Radio Communication Program Governance

            DHS does not have an effective governance structure over its radio
            communication program. Specifically, DHS has not implemented a governance
            structure with authority to establish policy, budget and allocate resources, and
            hold Components accountable for managing radio programs and related
            inventory. During a prior audit of oversight of radio communication
            interoperability, DHS said that it established a structure with authority to ensure
            Components achieve radio communications interoperability.6 However, that
            authority is limited to the acquisition and management of future communication
            networks. Components are independently managing their current radio
            programs with no formal coordination from the Department. As a result,
            management and investment decisions for the current DHS radio communication
            program are made using inconsistent, incomplete, and inaccurate real and
            personal property data.

            CBP operates and maintains one of the largest radio networks within DHS and
            the Federal Government. CBP has been working to modernize its radio systems
            since as early as 2007. In 2011, DHS directed CBP to establish Tactical
            Communications Network (TacNet) as a Department-wide project under the
            governance of an Executive Steering Committee (ESC) and the Joint Wireless
            Program Management Office (JWPMO).7 TacNet is a new acquisition program
            that seeks to leverage commercial networks to develop a single network capable
            of supporting voice, video, and data.



   6
     OIG-13-06, DHS’ Oversight of Interoperable Communications, November 2012.
   7
     The JWPMO is composed of staff from CBP’s Wireless System Program Office and the DHS Office of the Chief
   Information Officer’s Wireless Services Branch, as well as staff representatives from DHS components. Each of the
   Components contributes resources and defines their level of participation in accordance with a Memorandum of
   Agreement.

www.oig.dhs.gov                                             6	                                                 OIG-13-113

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           DHS directed the ESC to create a charter for the JWPMO and provide
           governance, review, and oversight to the JWPMO. The authority granted in the
           ESC charter is limited to the acquisition of future communication networks and
           does not establish it as a policy-making body for DHS’ current radio
           communication program. Although the JWPMO is required to serve as a central
           point of coordination for the Department’s acquisition of future radio systems,
           its charter does not establish it as a policy-making body for DHS’ current radio
           communication program.

           JWPMO cannot develop a realistic budget for future radio communication
           resources because of unreliable Department-wide radio inventory data. For
           example, a Wireless Asset Inventory Integrated Project Team has been chartered
           under the JWPMO to develop a common database for DHS-wide infrastructure
           and frequency assignments. Components are to provide information to the
           JWPMO because the radio system inventory information needed is housed in
           multiple, disparate systems with no common site name or identifier. A JWPMO
           official said that Components routinely have not responded to requests for data
           because the JWPMO lacks authority over them for the Department’s current
           radio communication program.

           Unreliable Department-wide radio inventory data has also made it difficult for
           DHS officials to identify radio infrastructure and other resources that
           Components could share to achieve cost savings or address critical shortages.
           For example, DHS is trying to identify opportunities for sharing resources in
           Florida, where there are insufficient radio frequencies to support future upgrade
           and expansion of both CBP and ICE radio systems. In 2012, DHS formed the
           Collaborative Enterprise TACCOM Integration – Florida project under the
           JWPMO. The project's purpose is to identify opportunities for meeting CBP and
           ICE needs for upgrade and expansion through resource sharing. The project will
           consist of a complete review of all CBP and ICE frequency assignments in Florida
           and a comparison of existing infrastructure and the related specific frequency
           assignments.

           Utilization of Radio Equipment

           DHS risks wasting taxpayer dollars because of its ineffective management of
           radio equipment. CBP and ICE stored 8,046 radio equipment items valued at $28
           million at maintenance facility warehouses for a year or longer, while some CBP
           program offices faced critical equipment shortages. In addition, two
           Components purchased radio equipment that was never used in operations,
           while a third Component needed the same equipment. One Component

www.oig.dhs.gov                                7                                      OIG-13-113

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            acquired more than 4,000 portable and mobile radios in 2011 and 2012, while it
            also had stored 278 new portable and mobile radios in its warehouse since 2009.
            CBP had 6,306 radio equipment items, valued at $21.5 million, stored at its Hi-
            Tech maintenance facility in Orlando, FL for a year or longer. Of this amount,
            1,246 items, or 20 percent, valued at $4.9 million were new items, including 840
            portable radios and mobile radios.8 CBP was storing these radios while critical
            shortages were occurring in the field.

            The Office of Border Patrol (OBP) reported that as of February 2011, it had
            19,281 portable radios deployed to the field to support 20,174 agents, or a
            shortage of 893.9 At this same time, inventory data for CBP’s technical
            maintenance facility warehouse in Orlando showed 1,980 portable radios in the
            warehouse. CBP stored portable radios at its maintenance warehouse as spares
            or “safety stock” to allow for equipment breakage and failure, while critical
            shortages existed in the field. These 1,980 portable radios represented 10
            percent of the 20,174 agents in the field, two times the 5 percent recommended
            by OBP as needed to support equipment breakage or failure. The Chief, OBP,
            issued a memo on April 1, 2011, directing that available radios from field offices
            with excess radio stockpiles and CBP’s maintenance facility warehouse in
            Orlando be reallocated and distributed to those sectors experiencing critical
            shortages. According to two CBP officials, reallocation of radios has taken and
            continues to take place to mitigate the shortages in the affected sectors;
            however, neither official provided documentation to support whether OBP
            reallocated radios to all the sectors with reported shortages in 2011.
            Documentation CBP provided does indicate 5 of 9 southern sectors were still
            experiencing shortages in August 2012, 16 months later.

            Two Components stored new equipment for several years while a third
            Component needed the same equipment. Specifically, USSS and ICE have 85
            digital interface units at a combined value of $262,000 that have never been
            placed in operation. CBP requires this same equipment to address a critical
            shortage for a nationwide radio system digital upgrade project. CBP estimates
            that it needs 50 of these equipment items, which are no longer available for
            purchase from the manufacturer. USSS radio program officials have indicated
            that they are holding their 29 items as spares. ICE acquired their 56 units in
            August 2010. As of January 2013, they were still being stored at the technical
            maintenance facility warehouse in Largo, MD.

   8
     See appendix E for details on type and amount of time the 1,246 items were stored at Hi-Tech.
   9
     The portable radios in question are Motorola Model XTS 5000 which meet both Federal interoperability and
   advanced encryption standards. The 893 agents operated with older portable radios that did not meet these
   standards, while CBP was storing 1,980 of the newer XTS 5000 models at Hi-Tech.

www.oig.dhs.gov                                            8                                                    OIG-13-113

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


            ICE acquired 4,189 portable and mobile radios, valued at $18.9 million, in 2011
           and 2012. However, our analysis determined that ICE stored 278 portable and
           mobile radios, valued at $1.3 million, at its Largo, MD technical maintenance
           facility since they were purchased in 2009. ICE purchased these radios for the
           Secure Communities Program. However, an official from ICE’s Tactical
           Communications Branch said the agency did not receive funding to support the
           deployment of all agents for Secure Communities as planned. As a result, the
           278 radios have remained in storage.

           Portfolio Management Approach

           GAO has recognized that a portfolio management approach is critical to
           achieving a balanced mix of executable programs and ensuring a good return on
           investment when determining needs and allocating fiscal resources. Through
           this approach, investments are assessed collectively from an enterprise level,
           rather than as independent and unrelated initiatives. The relative costs,
           benefits, and risks of proposed investments are weighed using established
           criteria and methods. The investments selected can exploit opportunities within
           resource constraints and move the organization toward meeting its strategic
           goals and objectives.

           A portfolio can be defined as a collection of items that are grouped together to
           facilitate efficient and effective management so that fiscal, staffing, and other
           scarce resources can be optimally allocated to provide the most benefit or
           greatest value for investments made. Therefore, the first step to a portfolio
           management approach is to inventory and classify items in the portfolio. This
           approach will provide valuable enterprise-wide information to help identify
           problems and opportunities, develop viable options, determine relevant criteria
           and weights, evaluate alternatives, and make balanced and appropriate
           investment decisions. To be effective, portfolio management requires not only
           the definition and classification of items into a single portfolio, but also a strong
           governance structure to make portfolio-related resource allocation and
           investment decisions.

           DHS is managing radio equipment and systems separately as personal property
           and real property rather than as a portfolio. Under the Clinger-Cohen Act, the
           Chief Information Officer (CIO) is responsible for providing advice and assistance
           to ensure that inventory management systems are designed, maintained, and
           used in an effective manner and that the data produced is reliable, consistent,



www.oig.dhs.gov                                  9                                         OIG-13-113

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


               and timely.10 At DHS, current responsibilities for managing the radio equipment
               and infrastructure inventory data are split between the personal and real
               property offices within the Office of the Chief Administrative Officer.
               As noted in the Radio Communication Governance Program section, the
               authority granted in the ESC and JWPMO charters is limited to future
               communication networks and does not establish either of them as policy-making
               bodies for DHS’ current radio communication program. DHS Components
               maintain their legacy radio equipment and systems independent of each other.
               GAO has noted that failure to implement a portfolio management approach—
               assessing investments as independent and unrelated initiatives within an
               organization—results in less assurance that investment decisions will address the
               right mix of needs. It also increases the risk that more programs or projects will
               be started than current and likely future resources can support, thus making
               them not affordable within the context of overall fiscal resources.

               Conclusion

               DHS estimated that it would need $3.2 billion to modernize its radio systems to
               meet its needs, and awarded a $3 billion Department-wide strategic sourcing
               contract in March 2012 for this purpose. However, the cost efficiencies that DHS
               seeks to achieve from a strategic sourcing contract for radio equipment may
               potentially be negatively impacted through poor procurement or inventory
               management practices.

               DHS needs a reliable Department-wide inventory to help it plan, budget,
               schedule, and acquire upgrades and replacements of its radio systems and
               equipment. A Department-wide inventory will help DHS prioritize its needs and
               plan its investments to make the most efficient use of available resources. It will
               also assist with planning for the acquisition and management of future
               communication networks. DHS also needs a strong governance structure over its
               radio communication program with adequate authority and resources to
               establish policy, make resource allocation and investment decisions, and hold
               Components accountable for managing radio programs and related inventories.
               A portfolio management approach to the DHS radio communication program
               would help ensure DHS receives a good return on investment when determining
               needs and allocating fiscal resources.




   10
        Public Law 104–106, Division E, February 10, 1996; 40 U.S.C. Sections 1425(b) and 1426(1).

www.oig.dhs.gov                                               10                                     OIG-13-113

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendations

           We recommend the Under Secretary for Management:

           Recommendation #1:

           Establish a single point of accountability at the Department level with the
           authority, resources, and information to ensure a portfolio approach is
           implemented for its radio communication program.

           Recommendation #2:

           Develop a single portfolio of radio equipment and infrastructure, which will—

                  •	 Identify and describe the data elements needed to manage radio 

                     equipment and infrastructure; 


                  •	 Develop policies and implement procedures for standard data reporting
                     of radio equipment and infrastructure; and

                  •	 Develop policies and implement procedures for verifying the accuracy
                     and completeness of reported radio inventory data.

           Management Comments and OIG Analysis:

           The Department provided comments on this draft report. A copy of the
           response in its entirety is included in appendix B. The Department also provided
           technical comments and suggested revisions to our report in a separate
           document. We reviewed the Department’s technical comments and made
           changes in the report where appropriate.

           Recommendation #1: DHS concurred with this recommendation. DHS noted
           that it is working to develop and implement Department level portfolio
           management of tactical communications; the timeline and resources for which
           will be described in the Fiscal Year 2016 Resource Allocation Plan and related
           capital plan and business case decisions to support full implementation. The
           estimated completion date is to be determined.




www.oig.dhs.gov                                 11	                                      OIG-13-113

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: DHS’ planned corrective action satisfies the intent of the
           recommendation and is considered resolved. The recommendation will remain
           open until we receive the FY 2016 Resource Allocation Plan, capital plan, and
           business case decisions supporting the Department’s implementation of tactical
           communication portfolio management.

           Recommendation #2: DHS concurred with this recommendation and said the
           JWPMO has made significant progress in collecting the data necessary to
           develop a single profile of DHS assets, infrastructure, and services across
           Components. DHS also said it will complete a review of existing policies and
           procedures and will revise, as necessary, its personal property manual to align
           with the findings. The estimated completion date for the corrective action is
           June 30, 2014.

           OIG Analysis: DHS’ planned corrective action is responsive to the
           recommendation and we consider this recommendation resolved. The
           recommendation will remain open until we receive documentation that
           identifies and describes the common data elements needed for managing and
           reporting a single profile of radio equipment and infrastructure, as well as any
           revised and finalized implementing guidance or manuals.




www.oig.dhs.gov                                12                                       OIG-13-113

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department. The audit objective was to
   determine whether DHS is managing its radio program and related inventory in a cost-
   effective manner to prevent waste of taxpayer dollars.

   We reviewed Federal, Departmental, and component policies and processes for
   managing personal and real property inventories. These included, but were not limited
   to: Office of Management and Budget Circular A-123; DHS Directive # 119-03, Personal
   Property Asset Management Program; DHS Instruction 119.02.001, Real Property
   Manual, and ICE Personal Property Operations Handbook, March 2011.

   We interviewed DHS officials from the Office of the Chief Information Officer, Office of
   the Chief Administrative Officer, Office of the Chief Procurement Officer, and the Joint
   Wireless Program Management Office at their headquarters office in Chantilly, VA. We
   also interviewed CBP, ICE, and USSS personnel responsible for the oversight or the
   management of radio programs and related inventories at their offices in Washington,
   DC; Chantilly, VA; Largo, MD; and Orlando, FL.

   We reviewed and analyzed contracts, purchase orders, lease information, and other
   documents related to the acquisition and storage of radio equipment and infrastructure.
   We reviewed and analyzed documents related to the governance and management of
   DHS radio programs, including Acquisition Decision Memorandums, Charters, and the
   Program Management Plan.

   We requested all radio equipment data as of June 30, 2012, from DHS Components most
   likely to use radio equipment in daily mission operations. These Components included
   the Transportation Security Administration (TSA), the Federal Law Enforcement Training
   Center (FLETC), the Federal Emergency Management Agency (FEMA), USCG, USSS, ICE,
   and CBP. We analyzed the radio equipment data from these Components, which
   contained 197,119 equipment items totaling $558.5 million. We selected USSS, ICE, and
   CBP for detailed site visit testing of reported radio equipment inventory because these
   Components accounted for 156,935 equipment items, or 80 percent of total
   items, totaling $519.2 million, or 93 percent of total dollars.


www.oig.dhs.gov                               13                                      OIG-13-113

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   To validate the reliability and accuracy of reported radio equipment data, we conducted
   physical verification of reported equipment at the USSS warehouse in Washington, DC;
   the ICE technical maintenance facility warehouse in Largo, MD; and the CBP National
   Law Enforcement Communication Center in Orlando, FL. We selected these sites for
   testing because these locations accounted for 16,524 equipment items totaling $63
   million, or about 11 percent, of total reported equipment items and 12 percent of total
   reported dollars for these Components. We selected a random sample of 174
   equipment items, totaling $706,636 for these three locations from the inventory data
   provided. However, we did not conduct detailed physical verification testing of
   reported ICE equipment inventory in Largo, MD, for 34 equipment items totaling
   $159,117. A significant number of these equipment items (18 percent) had been
   transferred prior to our visit. Therefore, we performed alternative audit procedures to
   verify the receipt of items shipped from Largo, MD.

   To validate the reliability and completeness of reported radio equipment, we selected a
   judgmental sample of 75 items, totaling $415,549, from equipment items physically
   located at USSS warehouses in Washington, DC; the ICE technical maintenance facility
   warehouse in Largo, MD; and the CBP maintenance facility in Orlando, FL. We
   judgmentally selected items that appeared to be in new condition. We also analyzed
   USSS, ICE, and CBP inventory data to further assess the reliability of reported radio
   equipment inventory data and to mitigate the risk of incomplete data.

   We performed limited tests to validate the reliability of reported radio infrastructure
   data, comparing component infrastructure and lease data to information reported in
   the RPIS. We also analyzed information reported in RPIS for CBP to the local inventory
   maintained by the National Law Enforcement Communication Center.

   Although our analysis and detailed testing of reported inventory disclosed instances of
   incomplete or inaccurate data, as discussed in the body of our report, we determined
   the inventory data was sufficiently reliable for the purposes of our audit objective and
   to support our audit findings.

   We conducted this performance audit between July 2012 and March 2013 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective.



www.oig.dhs.gov                               14                                       OIG-13-113

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                          II.<;. Drportm<n< or llomtlond l>cturll,\
                                                                                          \\ "'bingloo. DC 2098



                                                                                          Homeland
                                                                                          Security
                                                         July 10,2013


              MEMORA DUM FOR:               Charles K. Edwards
                                            Deputy Inspector Go::no::ral
                                            Office of Inspector General

              FROM.                         Jim H. Crumpacker        ~({)         .   n
                                            Darector                         ~
                                            Departmental GA0-01         Lini:lOn Office

              SUBJECT:                      OIG Drafi Report: "DHS Needs to Manage !Is Rndio
                                            Communication Progntm Reller"
                                            (Project No. 12-157-AUD-DHS)

              Thank you for the opportunity to revaew and comment on this draft report. The U.S. Deparuncnt
              of Homeland Security (DIIS) appreciates tlte Office of Inspector Geneml's (OlG's) work in
              plunning and conducting its review and issuing this n:port.

              OilS le:~dership understands the importance of levernging the Department's collccbve capability
              to strengthen the homeland security enterprise and is continuing to make significant progress in
              improving cffcctivcnCJ;s uml intc~,orution across the Components. The DHS Under SccrCiary tor
              Management leads the DHS-wide effort to integrate the Deportment's management
              infrastructure. which includes the establishment of functional portfolios ddim:d within tht: DHS
              Segment Arclutecture Methodology (DSAM). The DSAM represents the process tor developiug
              segment archatccturc~ for cnmmon massaon and business ti.mctions across the Department.
              Segment nrehitccturcs bridge strategic planning, mis~inn ami hu~inc~~ operA hoM, ~ ntl
              on formation technology (IT) implementation to provide actionable blueprints in support of"Onc
              OilS."

              Since il~ inception, DHS ha.~ steadily improved intcgrntion of its Components' unique
              operational missions. The Office of the Chief Readiness Support Officer (CRSO), within the
              Manac,cmcnt Dorcctorntc (\M;MT), i~ re•ron~ible lor coordinnling efforts to improve alignment
              of business support s<:rviccs. including management of assets and related support acovities.
              CRSO continues to focus on 1mpro\ing the rcadincs~ of mission support in an affordablo
              manner. It facilitates integratiou ofth~ Compon~nts by ussessing various support processes,
              identifYing similarities, standardizing asset and related pcrfonnance clata standards, compiling
              dcpartm<.'tltal data and integrating capabilities. Recently, CRSO issued draft data accountability
              standards for B!>St:ts that wver radio wmmunicatiuns and numerous other asset classes. which
              should be finalized by August 30,2013.




www.oig.dhs.gov                                                 15                                                                    OIG-13-113

                                                OFFICE OF INSPECTOR GENERAL
                                                        Department of Homeland Security




                  The dr..1ft report contained two recommendations with which the Department concurs.
                  Specifically, OIG recommended that the DHS Under Secretary for Management:

                  R ecommendation l: Establish a single point of accountabi lity at th<: D<:partm<:nt l<:vel with the
                  authority, resource , and mfonnalton ro ensure a porttoho approach is implemented for its radio
                  commWlication progmm.

                  R esponse: Concur. DHS has established an Enterprise Architecture (EA), which defines the
                  functional areas that support the strategy and m1ssions of the Department. r:unctional areas are
                  decomposed into specific activities, governance bodies, and artifacts that provide DHS
                  organizations and their leaders with a basis for cullaburatiun and reuse of resources. Using the
                  DSAM , the Department has defined 13 Functional Portfolios with varying levels of maturity.
                  each compost:d uf di~tinct uctivili1--s. Radio Cummunicatiuns is included within the broader
                  Communications scb'lllcnt architecture-! ofJ I segments aligned w1th the Enterprise IT
                  Services Functtonal Portfolio. Within the context of this report, "portfolio" is used to refer to the
                  pnmary function of'"Communications" rather than the broader Enterprise IT Services Functional
                  Portfolio.

                  DHS has demonstrated through an independent assessment that it has now attained maturity
                  Stage 4 status as proscribed by the U.S. Government Accountability Office's enterprise
                  architecture management maturity framework'. This means that DHS has a foundational set of
                  corporate and subordinate EA products that provide a meaningful basis for infonning selected
                  investments and building gn:utcr EA scope, contenL usc, and results.

                  The Department's single point of accountability, with the authority, resources, and infonnation
                  to ensure a portfolio approach is implemented for its rarlio communtC.1tton program, ts the
                  Tactical Communications (TACCOM) Executive Steering Commillee (ESC), which was
                  established in 2011. It is composed of the Deputy Component Heads from each DHS
                  Component wtth equity m the TACCOM portfolio segment. This ESC was approved to assume
                  TACCOM portfol io segment authority to enable greater trunsparency and oversight of the
                  Department"s radio communication investments. Specific segment portfolio policy and
                  processes are in the early stagt:s uruwturity, but t.:urrent invesllmmts are managed within the
                  framework of the enterprise rt Sei"Vlces Functional Portfolio.

                  OilS has made significant progress in developing a com prehen ivc understanding of irs cx•sti ng
                  capability as well as Component strategic planning for su.~tainment ancl replacement of radio
                  communications systems. However, successful planning is dependent on the availability of
                  budget and other resources. Current estimated time to complete the fully matured Department-
                  level segment portfolio management for tactical communications will he based on the yet-to-be
                  dt.wdopcd Fiscal Year (FY} 2016 R~ource Allocalwn Plan (RA P} ond related capital pion and
                  business case decisions to suppon full implementation.

                  The T ACCOM Portfolio Management function currently falls under the Offi ce of the Chief
                  Info rmation Ollicer IT Infrastructure Services Governance Board (ITSGB) under the IT line of
                  business. Tht: Joint Wireless Program Management Otlice (J\VPMO) ESC is exploring the

                  1
                      ORGANllo\TIOSAl TRA.\!SFORMATION A Fran'e"Orl fOr A"'••c.:um~and lm.pn.wins Enterpnse ArdutechH-c   \bru~rtn('rtlCVtl\1110 2.01
                  (0AO.JO-K4Ml     Aut:.~"l ~ ?O HI ) '""'hmr;ton   UC

                                                                                                                                                    2




www.oig.dhs.gov                                                              16                                                                         OIG-13-113

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  opportunity for the JWPMO to support the ITSGB in helping to enhance the management of the
                  OilS Tactical Communications Portfolio. The JWPMO has assembled and vetted the resource
                  uno fwru ing r~:4uir~:mcnt:. m:cc::.~ury to as~urm; thi~ role. The rc~ uh~ of th i ~ rcwurct: uno funding
                  study will be presented to the ESC in July 2013. If approved, the J WPMO will assemble all
                  documentation and fund ing requirements under the FY 2016 RAP submission. Estimated
                  Completion Date (ECD): To Be Determined

                  Recommendation 2 : Develop a single portfolio of rndio equipment and infrnstructurc, which
                  will-

                      •   Identify and describe the data elements needed to manage radio equipment and
                          infrastructure;

                      •   11evelop policies and implement procedures for sranclarrl clnra reporting of radio
                          equipment and infrastructure; and

                      •   Develop policies and implement procedures for verifying the accuracy and completeness
                          o f reported radio inventory data.


                  R esponse: Concur. The JWPMO has made significant progress in collecting the data necessary
                  to develop a single profile o f IJHS assets, infrastructure, and services in use across Components.
                  CRSO's primary objective for our property management program is to ensure that DHS personal
                  property assets are managed in accordance with all laws, regu lations, and DIIS policy, and that
                  asset management decisions arc based on sustainability, maximiLing return on investment, and in
                  the ovcrnll best interests of the government and citizens. CRSO has promulgated standards for
                  the collection and maintenance of inventory data and wrll continue to work with the J WPMO.
                  which will complete a review o f existing policies and procedures within 120 days of this
                  memorandum. Following the review, we will revise, as necessary, our personal property manual
                  to align with the findings. ECD: J une 30, 2014.

                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  comments were previously provided under separate cover. Please feel free to contact me if you
                  have any questions. We look forward to working with you in the future.




                                                                                                                          3




www.oig.dhs.gov                                                    17                                                         OIG-13-113

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix C
   DHS Radio Equipment Items and Infrastructure Value


                                       Figure 1. Radio Equipment11
                                Component     Items       Acquisition Value
                                TSA*              12,466 $                -
                                USCG*             14,096 $                -
                                FLETC              2,543 $    4,909,011.53
                                FEMA              11,079 $ 34,445,709.37
                                USSS              28,142 $ 105,843,483.39
                                ICE               38,622 $ 168,070,601.92
                                CBP               90,171 $ 245,273,242.79
                                Total           197,119 $ 558,542,049.00



                                      Figure 2. Radio Infrastructure12
                                Component       Sites     Replacement Value
                                TSA                         -    $         -
                                USSS                        4    $   1,910,000.00
                                ICE                        80    $   2,139,800.10
    

                                FEMA                       44    $   2,180,181.89
                                FLETC                      11    $ 14,941,796.87
                                CBP                     1,350    $ 25,278,247.47
                                USCG                    2,001    $ 494,633,846.24
                                Total                   3,490    $ 541,083,872.57




   11
      USCG data did not include any reported values or costs for the equipment items listed. Therefore, the total 

   amounts presented are understated. Subsequent to the issuance of the draft report, TSA provided an updated 

   inventory of 12,515 equipment items totaling about $37 million. 

   12
      The Components did not report acquired costs in the RPIS data received; therefore, replacement value was used.


www.oig.dhs.gov                                            18                                                  OIG-13-113

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix D
   Analysis of DHS Component Inventory Data Elements
             Figure 3. Data Elements Recorded in Component Inventory Systems
                                                                                            Total
    Data Element                  USCG13 CBP FLETC ICE TSA USSS FEMA                         (N)
    Unique Identifier
    (property tag number)          N/A        Y       Y      Y      Y      Y        Y         0
    Stewardship/Location           N/A        Y       Y      Y      Y      Y        Y         0
    Cost                           N/A        Y       Y      Y      Y      Y        Y         0
    Description/Name
    (mobile or portable
    radio)                         N/A        Y       N      Y      N       Y       Y         2
    Acquisition Date/
    In-Service Date                N/A        N       Y      Y      Y       Y       Y         1
    Category/Type
    (radio equipment,
    weapons)                       N/A        Y       N      Y      Y      Y        N         2
    Status (active, idle, etc.)    N/A        Y       N      Y      Y      Y        N         2
    Condition (new, scrap)         N/A        N       N      N      N      N        N         6
    Total (N)                      N/A        2       4      1      2      1        3




   13
     USCG’s radio inventory resides in numerous, disparate databases and sufficiently reliable data was not
   available for analysis during our audit.

www.oig.dhs.gov                                       19                                             OIG-13-113
                                      OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


             Appendix E
             CBP New Radio Equipment Items Stored at Hi-Tech Facility

                    Figure 4. New Radio Equipment Items Stored at CBP Hi-Tech Facility in Years
                 >=5 Years         4 Years         3 Years             2 Years            1 Year           Total
Equipment     Items $ Value    Items $ Value   Items $ Value     Items     $ Value   Items $ Value   Items   $ Value
Portable
XTS 5000       33     30,387    1      3,711    0            0   372       936,271    10    50,185    416    1,020,554
Mobile XTL
5000           0          0     11    41,437   142   535,525     281     1,128,355   100   421,372    534    2,126,689
Consolette
Base
Station        88   327,439     76   303,089    0            0     0             0    57   285,433    221     915,961
Repeater       19   209,869     44   536,865    0            0     3        35,064    9    103,697    75      885,495
Total         140   567,695    132   885,102   142   535,525     656     2,099,690   176   860,687   1,246   4,948,699




        www.oig.dhs.gov                                 20                                           OIG-13-113

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Linda Howard, Director
   Robert Ferrara, Audit Manager
   Johnson Joseph, Auditor-in-Charge
   Peter Christopher, Program Analyst
   Barry Cleveland, Program Analyst
   April Evans, Program Analyst
   Eliece Pizarro, Auditor
   Kevin Dolloson, Communications Analyst
   Patricia Benson, Independent Referencer




www.oig.dhs.gov                              21                 OIG-13-113

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  22                        OIG-13-113

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
